                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

 Case Number: 107100043                                                                                       Page 1 of 1



          We investigated a University I that had awards 2 for which no final project reports were submitted
          and for which expenses were incurred after the award expiration dates.

         The University was asked to review the awards selected and to provide information and/or an
         explanation about issues found. The University reviewed the selected awards and determined
         that certain charges, although posted after the award expiration dates, were for expenses that
         were incurred during the award period. These expenses, for one reason or another, had not been
         processed until after the expiration dates.

         The University stated that the outstanding final reports for all but one award were submitted and
         approved or awaiting approval. A review of the NSF eJacket electronic award system
         determined that final reports were indeed submitted and approved, except for one award in which
         a PI had passed away, and another award for which the lack of a final report is not explained in
         the system.

         During the course of this investigation, OrG noted various adjustments or cost transfer
         transactions on a number of awards. The University explained that small balances remaining on
         awards at the time of financial closure (typically less than $300) were routinely moved to a
         University miscellaneous account (an "over/under" account) to create a zero balance for the
         award. The funds retained in this over/under account were then used to offset costs of other
         awards.

          NSF/OIG informed the University that this accounting practice was/is inconsistent with NSF
          policies and OMB Circular A-IIO. The University provided information regarding funds
          retained for both NSF and also all other federal awards between July 2005 and April 2009. The
        . University returned all NSF funds 3 it had improperly retained, and submitted a refund4 to the
          cognizant agency for all grant monies improperly retained on all other federal awards for the
          same time period. Additionally, the University ceased its accounting practice of retaining grant
          funds left on NSF and all federal awards.

         Accordingly, this case is closed.



          IUniversity of California, Berkeley.
         2 40 awards with charges after the award expiration dates and 21· awards with outstanding final reports.
         3 $5,530.85 returned to NSF.                       i

         4 $?,633.29 returned to the Department of Health and Human Services.




NSF DIG Form 2 (11102)
